September 29, 2000

JOHN E. POTTER
SENIOR VICE PRESIDENT, OPERATIONS

WILLIAM J. DOWLING
VICE PRESIDENT, ENGINEERING

SUBJECT:     Audit Report – Use of Robotic Tray Handling System
             (Report Number AC-AR-00-004)

This report presents the results of our review of the Use of the Robotic Tray Handling
System (Project Number 00PA028AC000). The objective of the audit was to assess the
impact of the Robotic Tray Handling System on Postal Service operations.

We could not assess the benefits of the Robotic Tray Handling System because
processing facilities did not retain and use the empirical data collected to assess
performance. However, plant managers at the facilities where the tray feeding
mechanism was installed were impressed with system performance and operational
benefits. Plant managers viewed the pedestal robot as being less productive if it was
not equipped with a tray feeding mechanism. We also identified additional funding
requirements associated with system installation that were not identified in the Decision
Analysis Report as well as costs incurred due to program changes. Management
generally agreed with our findings and recommendations. Management’s comments
and our evaluation of their comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Ralph “Stew”
Dorris at (703) 248-2357 or me at (703) 248-2300.



Debra S. Ritt
Acting Assistant Inspector General
 for Business Operations

Attachment

cc: John R. Gunnels
Use of Robotic Tray Handling System                   AC-AR-00-004



                                  TABLE OF CONTENTS

Executive Summary                                         i

Part I

Introduction                                             1

   Background                                            1
   Objective, Scope, and Methodology                     1
   Prior Audit Coverage                                  2

Part II

Audit Results                                            3

   System Performance                                    3
   Recommendations                                       5
   Management’s Comments                                 6
   Evaluation of Management’s Comments                   6

   Additional Funding                                    8
   Recommendation                                        8
   Management’s Comments                                 8
   Evaluation of Management’s Comments                   8

   Other Costs Resulting from Program Changes            9
   Warehousing Costs                                     9
   Site Survey Changes                                   9
   Tray Feeding Mechanism Surveys                        9
   Robot Removal                                         10

   Appendix. Management’s Comments                       11
Use of Robotic Tray Handling System                                              AC-AR-00-004



                                  EXECUTIVE SUMMARY
Introduction                 This report presents the results of our audit of the Robotic
                             Tray Handling System. The objective of the audit was to
                             assess the impact of the Robotic Tray Handling System on
                             postal operations.

Results in Brief              We could not assess the benefits of the Robotic Tray
                              Handling System because processing facilities did not
                              consistently capture and retain empirical data on system
                              performance. However, 18 of 42 plant managers we
                              interviewed indicated the pedestal robot had a positive
                              impact on postal operations when the system was installed
                              with a tray feeding mechanism.

                              The pedestal robot was not as successful at 24 of
                              42 facilities that lacked tray feeding mechanisms needed to
                              operate the system at maximum capacity. Managers did
                              not install the tray feeding mechanisms because funding
                              was not provided for this equipment in the Decision
                              Analysis Report for the Robotic Tray Handling System.
                              Also, several plant managers told us they were unwilling to
                              install the system due to concerns about performance and
                              the advent of new technology.

                             Eighteen postal facilities that installed the pedestal robot
                             expended an additional $7.2 million to deploy and complete
                             the system. These costs were not included in the original or
                             modified Decision Analysis Reports. Most of these
                             expenditures were for installation of tray feeding
                             mechanisms. Additional funding will be required to fully
                             deploy the system and achieve the anticipated performance
                             improvements in the Decision Analysis Report. In addition,
                             the Postal Service incurred another $1.3 million in
                             warehousing and other costs due to program changes.

Summary of                   We recommend the senior vice president, Operations,
Recommendations              ensure that system performance data is retained and
                             analyzed to assess impact on mail processing operations.

                             We also recommend the vice president, Engineering,
                             consider providing funds to deploy the remaining Robotic
                             Tray Handling Systems and to install tray feeding
                             mechanisms for the previously deployed pedestal robots.




                                               i
Use of Robotic Tray Handling System                                              AC-AR-00-004




Summary of                   Management agreed with the recommendation concerning
Management’s                 the retention of performance data, and offered a better
Comments                     solution that went beyond our recommendation. They
                             proposed to combine performance data and work hour data
                             and integrate it into the management information routinely
                             used by field managers.

                             Additionally, management agreed that the pedestal robot
                             was more efficient when used in conjunction with a tray
                             feeding mechanism, but did not agree that a tray feeding
                             mechanism needed to be provided for every robot.
                             Management also stated that a task force had been
                             established to identify candidate sites for undeployed robots
                             and potential performance improvements at sites lacking
                             tray feeding mechanisms. They expect this approach to
                             result in the deployment of tray feeding systems to existing
                             sites currently lacking them.

                             Management also stated that funding to deploy the
                             remaining pedestal robots with tray feeding mechanisms is
                             already available under the Field Fixed Mechanization
                             Program. They expect the task force will help sites justify
                             tray feeding mechanisms and a need for the undeployed
                             pedestal robots.

                             Management also pointed out that their early projection of
                             $497,200 for warehousing costs of undeployed pedestal
                             robots was now expected to be less than $200,000. We
                             have changed the report to reflect that lesser amount.

                             Management’s comments, in their entirety, are included in
                             the Appendix.

Overall Evaluation of        Management’s comments and proposed alternative
Management’s                 corrective actions are responsive to our recommendations
Comments                     concerning performance data. Management’s comments
                             concerning the provision of a tray feeding mechanism for all
                             deployed pedestal robots meet the intent of our
                             recommendation. However, we do not agree that it is
                             unnecessary to provide a tray feeding mechanism for every
                             deployed pedestal robot. We also do not agree that the tray
                             feeding mechanisms should be separately funded. We




                                               ii
Use of Robotic Tray Handling System                                             AC-AR-00-004




                             believe the cost of both systems should be captured jointly
                             to provide complete disclosure of project costs and return
                             on investment.

                             Management’s comments regarding the provision of funding
                             to deploy the remaining pedestal robots with tray feeding
                             mechanisms meet the intent of our recommendation.




                                              iii
Use of Robotic Tray Handling System                                              AC-AR-00-004



                                      INTRODUCTION
Background                   The Robotic Tray Handling System consists of two
                             components: a pedestal-style robot and a tray feeding
                             mechanism. The system moves strapped and sleeved letter
                             mail trays from the tray feeding mechanism to the pedestal
                             robot and distributes the trays into twelve all-purpose
                             containers. Also, the system was intended to reduce
                             manual workload hours and risks involved in manual lifting
                             tasks. The pedestal robot and the tray feeding mechanism
                             are both essential to operate the Robotic Tray Handling
                             System at maximum capacity.




                                                   Pedestal Robot

                             In August 1996, the Postal Service Board of Governors
                             approved a Decision Analysis Report for 102 pedestal-style
                             robots at a total cost of $28.9 million. In June 1998, Postal
                             Service Engineering submitted and received approval on a
                             request for additional funding of $8.8 million to complete the
                             program. Seventy-three pedestal robots have been
                             installed in 42 facilities. Twenty-seven pedestal robots
                             remain to be deployed.

Objective, Scope, and        Our audit objective was to assess the impact of the Robotic
Methodology                  Tray Handling System on Postal Service operations. In
                             conducting the audit, we interviewed plant managers at all
                             42 facilities where the robots were installed. Additionally,


                                               1
Use of Robotic Tray Handling System                                              AC-AR-00-004



                             we conducted site visits at 15 of 42 facilities that were
                             randomly sampled. During site visits, we interviewed plant
                             managers, in-plant support managers, maintenance
                             managers, contractors, and other personnel. We observed
                             robots in operation, obtained and analyzed data related to
                             the Robotic Tray Handling System, and physically counted
                             robots warehoused in Detroit, Michigan. At the remaining
                             27 facilities we conducted telephone interviews with facility
                             personnel. Finally, we reviewed the original and revised
                             Decision Analysis Reports for the project.

                             This audit was conducted from March through
                             September 2000 in accordance with generally accepted
                             government auditing standards and included such tests of
                             internal controls as were considered necessary under the
                             circumstances. We discussed our conclusions and
                             observations with appropriate management officials and
                             included their comments, where appropriate.

Prior Audit Coverage         The Postal Inspection Service completed an audit of the
                             planning and developmental phases of the Robotic Tray
                             Handling System project in October 1997. They determined
                             the cost/benefit analysis for the Robotic Tray Handling
                             System, Phase 1 did not include additional site modification
                             costs and projected benefits for development and
                             deployment. Also, system performance could not be
                             accurately projected until all significant associated project
                             costs and benefits were identified.

                             Management concurred with both findings, and stated
                             Engineering would include the additional investments in
                             future Robotic Tray Handling System Decision Analysis
                             Reports. However, management did not agree to
                             recalculate the return on investment for the purchase.
                             Additionally, management stated access controls will be
                             improved, and Engineering will work with Information
                             Systems Security for the appropriate security requirements
                             and policy for future Robotic Tray Handling System projects.




                                               2
Use of Robotic Tray Handling System                                                 AC-AR-00-004



                                      AUDIT RESULTS
System Performance           We could not assess the impact of the Robotic Tray
                             Handling System on postal operations because processing
                             facilities did not consistently capture and retain empirical
                             data on system performance. Incomplete data did not allow
                             managers to effectively analyze system performance and
                             compare it to other postal mail processing systems. For
                             example, throughput volume measures the amount of mail
                             processed by a system, usually in hourly or daily
                             increments. With this data, managers can compare mail
                             volumes of various processing systems and establish which
                             system maximizes throughput. These measurements,
                             along with other performance data, can assist the Postal
                             Service in making decisions about those systems to invest
                             in and deploy.

                             Because performance data was not complete, we
                             interviewed 42 plant mangers to determine if the system
                             increased productivity or reduced costs. Plant managers at
                             the 18 facilities where the tray feeding mechanism was
                             installed said they observed operational benefits from the
                             pedestal robots. Additionally, these plant managers were
                             impressed with the robot’s performance, and told us the
                             system:

                                  •   Reduced labor hours and overtime.
                                  •   Reduced risk of industrial accidents.
                                  •   Reduced transfers of mail to other facilities for
                                      processing.
                                  •   Increased productivity.

                             Based on these interviews, which are summarized in the
                             chart below, we concluded the tray feeding mechanism was
                             needed to achieve the operational benefits of the system.




                                                 3
Use of Robotic Tray Handling System                                                            AC-AR-00-004



                                       Survey of plant managers at facilities
                                      equipped with tray feeding mechanisms

                                                                           # of facilities with installed
                                45
                                                                           pedestal robots




                                                                           # of facilities with tray feeding
                                30                                         mechanisms




                                                                           # of plant manager that stated
                                                                           the facility experienced
                                15                                         operational benefits from the
                                                                           pedestal robot




                                 0



                             Managers at 14 of the 24 facilities who did not have the tray
                             feeding mechanism also confirmed the tray feeding
                             mechanism was needed to optimize performance. The
                             remaining ten managers had no opinion of the pedestal
                             robot’s performance. The tray feeding mechanism
                             complements the pedestal robot by automating the transfer
                             of mail trays from dispatch and/or manual sorting operations
                             to the pedestal robot. These results are summarized in the
                             chart below.

                                      Survey of plant managers at facilities not equipped
                                                with tray feeding mechanisms
                                45
                                                                                # of facilities with pedestal
                                                                                robots


                                30                                              # of facilities without tray
                                                                                feeding mechanisms


                                                                                # of plant managers that
                                15                                              had no opinion of robot's
                                                                                performance

                                                                                # of plant managers that
                                                                                stated robot's performance
                                 0                                              needed improvement




                                                  4
Use of Robotic Tray Handling System                                              AC-AR-00-004




                             Plant managers at the 24 facilities cited various reasons for
                             not installing tray feeding mechanisms. For example:

                                 Funding was not provided for tray feeding mechanisms
                                 and managers were unwilling to expend funds from their
                                 budgets to complete the system.

                                 The system often did not read barcodes correctly.

                                 They were awaiting the new Robotics Containerization
                                 System, which offered greater efficiencies over the
                                 Robotic Tray Handling System and required less floor
                                 space to install. Additionally, the new system would be
                                 fully funded by the Decision Analysis Report.




                                              Tray Feeding Mechanism

Recommendation               We recommend that the senior vice president, Operations:

                             1. Direct the area operations vice presidents to consistently
                                capture and retain available performance data relating to
                                the Robotic Tray Handling System and assess impact on
                                mail processing operations.




                                               5
Use of Robotic Tray Handling System                                               AC-AR-00-004



Management’s                 The senior vice president, Operations, agrees with the intent
Comments                     of our recommendation and believes that field managers
                             would use the data if it were improved and interfaced with
                             the Data Collection System. He proposed to combine
                             performance data and work hour data and integrate it into
                             the management information routinely used by field
                             managers. Management’s strategic plan is to integrate the
                             Robotic Tray Handling System data into the corporate
                             database and reporting systems. Management proposed
                             doing this by is adding software and hardware to the Robotic
                             Tray Handling System to expand its archiving capacity to
                             ensure all appropriate data is captured and maintained.
                             Management also plans on a test to interface the improved
                             data capture system with the Data Collection System as a
                             conduit for the Robotic Tray Handling System’s data. The
                             completion of this strategic solution is the integration of the
                             Robotic Tray Handling System’s data into the corporate
                             database and reporting systems.

Evaluation of                Actions planned in response to recommendation 1 should
Management’s                 address the issues identified. Management’s efforts to
Comments                     integrate the two sources of data go beyond our
                             recommendation and provide a better solution for providing
                             performance data to field managers.

Recommendation               We recommend that the vice president, Engineering:

                             2. Equip previously installed pedestal robots with tray
                                feeding mechanisms to maximize the robot’s
                                performance.

Management’s                 The vice president, Engineering, agreed that the pedestal
Comments                     robot is more efficient when used in conjunction with a tray
                             feeding mechanism, but did not agree that a tray feeding
                             mechanism necessarily needed to be provided for every
                             robot. Management further stated that the Decision Analysis
                             Report intended that the Robotic Tray Handling Systems be
                             targeted for sites that already had tray feeding mechanisms,
                             but that for various reasons some robot systems met certain
                             criteria and were deployed without tray feeding mechanisms.
                             The vice president, Engineering further stated that Postal
                             Service policy requires a site to justify the need for a tray
                             feeding mechanism and provides a program to fund these
                             requirements. Management also stated that a task force had
                             been established to identify candidate sites for undeployed



                                               6
Use of Robotic Tray Handling System                                              AC-AR-00-004



                             robots and potential performance improvements at sites
                             lacking a tray feeding mechanism. They expect this
                             approach to result in the deployment of tray feeding systems
                             to existing sites currently lacking them.

Evaluation of                Management’s comments and planned actions meet the
Management’s                 intent of our recommendation. However, we do not agree
Comments                     with management’s assertion that providing a tray feeding
                             system at every site without one is unnecessary. As
                             discussed in the report, managers were pleased with the
                             pedestal robot only if a tray feeding mechanism was installed
                             with it, and according to the Decision Analysis Report,
                             installation was only envisioned at sites with a tray feeding
                             mechanism already installed. For these reasons, it seems
                             prudent to provide one with each pedestal robot.

                             We also do not agree with management’s assertion that tray
                             feeding mechanisms should be funded separately. In
                             contrast to management’s interpretation of Handbook F-66A,
                             General Investment Policies and Procedures, we interpret
                             the handbook to require that both systems be funded
                             together. Decision Analysis Reports should include the total
                             cost of the project, including all planning, startup and direct
                             costs. We believe management correctly included the cost
                             of an integrated conveyor system in the next generation of
                             robotics, the Robotic Containerization System. We also
                             recognize that other systems have been funded separately in
                             the past, but we believe that costs associated with both
                             systems need to be captured to provide complete disclosure
                             of project costs and return on investment. We plan to
                             address this issue in a subsequent audit of the Decision
                             Analysis Report process.




                                               7
Use of Robotic Tray Handling System                                                 AC-AR-00-004




Additional Funding           The decision analysis report did not include funding for tray
                             feeding mechanisms and other improvements needed to
                             operate the system at maximum capacity. According to
                             Handbook F-66A, General Investment Policies and
                             Procedures, Decision Analysis Reports should include the
                             total cost of the project, including all planning, start-up, and
                             direct costs. It should also include all related costs and
                             expenditures, both capital and expense, necessary to
                             complete the project, bring it to operational status and fund it
                             through the economic analysis report displayed in the cash
                             flow. In addition, all projects and agreements undertaken as
                             a part of a single or unitary plan must be considered as one
                             project.

                              Despite this requirement, Engineering did not include the
                              funding needed to install the tray feeding mechanism in the
                              original or modified Decision Analysis Reports.
                              Consequently, 18 facilities, (43 percent of the facilities
                              equipped with pedestal robots) expended approximately
                              $7.2 million to install tray feeding mechanisms and complete
                              site preparation.

Recommendation               We recommend the vice president, Engineering:

                             3. Consider providing additional funding to deploy the
                                remaining pedestal robots with tray feeding mechanisms.

Management’s                 The vice president, Engineering agrees with the
Comments                     recommendation and has established a task force to work
                             with the field to identify candidates for the undeployed
                             robots. He also pointed out that a policy waiver would be
                             required to purchase feed systems that do not meet
                             corporate investment standards. However, the purchase of
                             the tray feeding mechanisms has been identified as a field
                             initiative and the vehicle used to fund this effort is the Field
                             Fixed Mechanization Program for sites meeting corporate
                             investment standards.

Evaluation of                Management’s comments are responsive to our
Management’s                 recommendations.
Comments




                                                8
Use of Robotic Tray Handling System                                                AC-AR-00-004




Other Costs                  Program changes impacted the deployment schedule that
Resulting from               resulted in $1.3 million in added costs. These costs
Program Changes              comprised warehousing of 27 pedestal robots that were not
                             deployed, additional site and equipment surveys, and
                             removal of robots at facilities that rejected the pedestal
                             robot.

Warehousing Costs            In May 2000, we identified 27 pedestal robots in a Detroit,
                             Michigan, warehouse that should have been deployed by
                             August 1999. According to the June 1996 Decision
                             Analysis Report, deployment of the pedestal robots was to
                             start in November 1996 and end in July 1997. However,
                             actual deployment did not begin until September 1997 and
                             ended in February 1998, when funds allocated for the
                             original Decision Analysis Report were exhausted. A
                             contract modification was submitted and approved
                             to complete deployment by August 1999. However,
                             deployment was not completed, and as of June 2000, the
                             Postal Service had estimated approximately $200,000 in
                             storage costs will accrue for the stored robots.

Site Survey Changes          Engineering developed a list of sites to receive the pedestal
                             robots and negotiated contracts to install the robots at
                             those processing facilities. However, plant managers at
                             some facilities, which had been surveyed for pedestal robot
                             installation, made the decision to pursue the Robotic
                             Containerization System instead because it was more
                             efficient and required less floor space. As a result, facilities
                             that had been surveyed were replaced with newly identified
                             facilities. Consequently, the Postal Service spent an
                             additional $160,300 for new site surveys.

Tray Feeding                 Engineering contracted with several firms to complete site
Mechanism Surveys            surveys for installation of the tray feeding mechanism.
                             Sixteen sites that did not receive the pedestal robot were
                             surveyed for installation of the tray feeding mechanism.
                             Subsequent to the surveys being completed, but prior to
                             installation, some of the plant managers chose not to accept
                             the pedestal robot, and decided to wait for deployment of
                             the Robotic Containerization System, which was under
                             development. Consequently, the Postal Service spent an
                             additional $607,000 for tray feeding mechanism surveys.




                                                9
Use of Robotic Tray Handling System                                            AC-AR-00-004




Robot Removal                Nine robots installed at six processing facilities were
                             removed after installation. These robots were installed
                             without tray feeding mechanisms. Due to limited
                             productivity, insufficient separations, or unwillingness to
                             spend additional funds to install tray-feeding mechanisms,
                             plant managers determined the pedestal robot was not cost
                             effective to operate and requested removal. These
                             removals cost the Postal Service $78,000.




                                              10
Use of Robotic Tray Handling System                   AC-AR-00-004



                    APPENDIX. MANAGEMENT’S COMMENTS




                                      11
Use of Robotic Tray Handling System        AC-AR-00-004




                                      12
Use of Robotic Tray Handling System        AC-AR-00-004




                                      13
Use of Robotic Tray Handling System        AC-AR-00-004




                                      14
